                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM


                                                                          I
    Case Number: I08060044                                                          Page 1 of 1

                          1

                Our investigation determined that an NSF employee used his NSF computer to visit a
        variety of pornographic websites on numerous occasions during official work hours. We

~
        concluded that the employee's perusal of such websites during work time violated NSF
        policies. We forwarded our report of investigation to NSF with a recommendation that it
        take appropriate action, and NSF suspended the employee for 10 calendar days. Our report
        of investigation, NSF's Notice of Proposal to Suspend, and NSF's Notice of Decision on
        Suspension are attached at Tabs 1-3.
    Please note: This report contains confidential personal ii~formatiolnand should be
    disclosed only to individuals who must have knowledge of its contents to facilitate
    NSF's assessment and resolution of this matter. Unauthorized disclosure may result in
    personal criminal liability under the Privacy Act, 5 U.S.C. 8 552a(i) (1).



I.       Overview     '



       This investigation involves a National Science Foundation (NSF) staff member
(the subject') who acknowledged to the Office of Inspector General (OIG) that he has
been inappropriately using his NSF computer to view websites containing adult
pornographic images and videos. W e conclitded that the subject violated NSF1s policies
regarding personal use of IT resources and use of official time by accessing pornographic
websites to view illappropriate material.

11.      Investigation

       We received a confidential complaint about sounds overheard from the subject's
computer speakers, indicating that the subject was viewing pornographic videos. W e
reviewed the subject's R driveZ and found no evidence that the subject saved any
inappropriate inlages or videos. W e examined his web browser history, which contained
information on websites the subject visited for the previous 20 days,3and determined that
he visited pornographic websites on numerous occasions on his NSF computer during his




2
   The R drive is a logical network drive assigned to each NSF staff nleinber for individual
storage of data, and is accessible only by the individual staff member, the individual's division's IT
staff, and the Division of Infornlation Systems (DIS), Office of Inforination and Resource
Management (OIRM).
3
   We determined that the subject uses Firefox for web browsing rather than Internet Explorer.
By default, Firefox retains history infornlation for the nlost recent 20 days, which is what we
found in his Firefox history.dat file. We used the freeware program Dork to convert the
history.dat file to a readable text file.
official work hours during that periodi While the pornsites displayed very graphic sexual
activity, none of the sites visited by the subject displayed child pornography.

       W e interviewed the subject on                  2008, at the beginning of which he signed
a Garrity Warning form (stating that the interview was voluntary) and a Weingarten form
(waiving the right to union representation).' T h e subject acknowledged having visited
numerous pornsites o n his NSF computer during work hours, and he expressed
einbarrassnlent and ~ o n t r i t i o n .He
                                         ~ later told us his "recent" habit of visiting these sites
covered approxiinately three ~ n o n t h s . ~In the interviews, the subject appeared to be
honest and forthcoming.

        The subject submitted a written s t a t e n ~ e n tconsistent
                                                           ,~         with what he said in our
interviews:

       [The OIG investigator] informed me that as a result of his investigation of
       these allegations he had found that I had in fact visited inappropriate web
       sites from my computer showing ine a list of the site names, tiines and dates.

       I did not then and do not now dispute those findings. I stated in the
       interview that I have n o excuse, I knew that the action was inappropriate
       and that my actions were subject to the monitoring that was the result of
       the findings.
                             t   i



       I have n o excuse for my behavior. It was unprofessional and not in keeping
       with the high standards of official conduct of NSF staff.

       I apologize to the co-worker who might have been subjected to the content
       of those sites in any way.

       I apologize to NSF for behavior unbecoming a professional staff member.


    "[Subject's] Firefox History 1 2008-06-03 15:22: 10 through 2008-06-24 12:54:16 ( Sorted by
Date &Time," Tab 1, & "[Subject's] Periods of Pornsite Perusal 1 2008-06-03 15:22:10 through
2008-06-24 12:54:16," Tab 2.
' The signed forlns are attached to the OIG Melnorallduln of Interview, Tab 3.
   Tab3.
   Tab 4. A co-worker who overheard the sounds of pornographic videos from the subject's
office said they began in May 2008, which was consistent with information she had conveyed
contemporaneously to a co-worker.
   Tab5.
       I understand that [OIG] will soon file a n official report of these allegations
       and findings with the NSF Division of Human Resource Management and
       with my supervisor. Together they will deter~nine possible disciplinary
       action against me. I ask that iny tenure with the agency' and my past
       performance be taken into account in their decision.

      W e reviewed the subject's performance appraisal file and Official Personnel File,
which contained highly positive performance assessments and n o indications of previous
adverse personnel actions.'
                           1   '




       T h e 20 days of web history retained by Firefox in'cluded 16 work days. W e
reviewed and compared the subject's ITAS times and his interilet pornsite activity for
those work days:

                                                               Duration of
                                        Time Worked -        Pornsite Perusal
                           Date        (Hours:Minutes)       (Hours:Minutes)
                         June 03            7:45                             :19
                         June 04            7:30                              :41
                         June 05            8:OO                             1:09
                         June 06            8:OO                              :01
                         June 09            8:OO                             ,:OO . ,
                         June 10            8:OO                              :do
                         June 11            7:30                              :59
                         June 12            7.25                              :07
                         June 13            8:OO                              :00
                         June 16            7:30                              :33
                         June 17            8:OO                              :00
                         June 18            8:OO         :           .       5:13
                         June 19            7:45                              :32
                         June 20            8:OO                              :00
                                                             '   !
                         June 23            8:OO                              :00
                         June 24            7:45                              :o 1
                          Total            125:OO                        :   9:35

Thus, over a period of 16 work days, the subject spent 9% hours perusing pornsites, which
was 7.6% of his work tin          ubject's current annual salary is         so 7.6% of 16
work days constitutes             of salary that NSF paid to the subject for viewing
inappropriate material o n pornsites. If those 16 days are representative of the subject's
         .




9
  In the five most recent perfornlance periods, the subject received four overall ratings of
Outstanding and one Very Good.                       .           6
activity for three months,'' then NSF paid the subject approximately f           o     r viewing
illappropriate material on pornsites.

111.   Relevant NSF Policies

      NSF's policy, "Personal Use of NSF's Techilology and Communication
Resources,"" states that NSF technology and communication resources

       are authorized for occasional personal use (excluding private busiiless use)
       when the additional cost to the goverilnlent is negligible and when the
       personal use is of reasonable duration and during personal time as much as
       possible so there is no interference with official business. . . . Any persolla1
       use of the agency's property is subject to the overriding expectation that
       employees will give the goverilnlent a full day's labor for a full day's pay. . . .
       Employees may make use of the Internet and electronic mail for nlatters
       that are not official business provided that . . . the use is not offensive to
       coworkers or the public (such as sexually explicit or otherwise inappropriate
       web sites) . . . .

       All NSF employees are required to complete IT Security Awareness Training every
year'2: the subject told us that he did so, and DIS confirmed that he has completed the
online training every year since 2002. This training includes the following admonition^:'^

       I uilderstaild that NSF IT resources, including e-mail accounts, are for
       authorized Government use only and in accordance with NSF policy, any
       activity that would discredit NSF, including seeking, transmitting,
       collecting, or storing defamatory, discriminatory, obscene, harassing, or
       intimidating messages or material is not permitted. . . .

       Don't go to pornographic sites. . . .




LO
   Three months leading up to 1 August began on 2 May, for a total of 65 workdays, which is
four times the number of days in the sample (16). During the interview on 1 August, the subject
stated that he would visit no more pornsites, and our subsequent review of his Firefox history a
month later confirms that he has not done so.
" NSF Bulletin 04-11 (Revision l ) , Tab 6.
12 http://inside.nsf.govloirmlhrm/acadeiny/itsecurity/training.jsp.
                                            -
'' Excerpts from NSF IT Security training, Tab 7.
          The personal use policy allows limited use if the use . . . does not interfere
          with staff productivity, . . . has n o potential for public enlbarrassillent to
          NSF . . . [and dloes not violate . . . NSF policies.

NSF Manual 15, "Conflicts Of Interest And Standards Of Ethical Conduct," states that
NSF einployees should

          Endeavor to avoid any actions creating the appearance that [they] are
          violating the law or other ethical standards."

          Unless specifically authorized otherwise, [they] illust use [their] official time
          only in a n honest effort to perform official duties. . . .I5

T h e NSF Personnel Manual states:

          NSF employees are expected to adhere to basic standards of integrity and
          decency. NSF enlployees must not engage in criminal, dishonest, inlmoral,
          or any other conduct prejudicial to the G o v e r n i ~ ~ e n t . ' ~

IV.       Conclusions

       The subject's perusal of pornographic websites during his NSF work time violated
 the above policies:

 1.       The subject violated NSF's policy o n personal use of IT resources by using his NSF
          computer and internet connection to view inappropriate images and videos o n
          pornographic websites.

2.        The subject violated NSF's ethical rules by using official NSF time for
          inappropriate personal activity. The subject's lllisuse of his official NSF time was
          not extensive, but neither was it negligible.

.3.       The subject subjected at least one of his co-workers to offensive and embarrassing
          audible material when he viewed inappropriate videos o n pornographic websites.




 'j   NSF Manual 15, 9 3 (14) and 9 56 (d), Tab 8.
 l6   NSF Manual 14, 3 1-143,Tab 9.
V.    Recommendation

       Based on the conclusions set out above, we recollllllend that rhe subject's
supervisor take appropriate personnel action with regard to the subject. Before taking any
personnel action, the subject's supervisor should coordinate with the Division of Human
Resource Managenlent to ensure the action is appropriate and consistent with actions
taken in similar cases.
                                                                       .'Be3s JSN lo PnPuQQle!D&Q
    40 splepuels y6!q ayl qyan bSraldai3yl u! ~ o pue
                                                  u leuo!sscsij~~@un                          j
                                                                    $EM $1 .sosasyaq Ahu ~ oasnme
                                                                                      M
    ou a ~ s qI -sbu!pu?gayj lo llnsal aqi sem geyj fiuyo~!erswayg 04 palqns ~ . S Psuqpe   Aw ye43
    pue ajeydo~ddeu!seaR uope ayj je@ mauy t 'asn3xa ou aaeq g leqb ~ a ! ~ a gayg     u f M! pa3egs
    I 'SBU~PU&gascrlgl @nds!pWBPUID@ trp gua u s q ~~ a u pip 1, 'p& JUEAWJ q
    us wrq $us%naA ' ~ 0'p       ~
                               0 ~sn6nv  81                          c ~ g~ o d aql
                                                                                s ~ pepnpui eq 08
    juawagegs ~euss~ad    ti? puss pinos                                a~u!aq$do ua!snpuo3 ayj $g
                                                                                XI) pue go sa~js asaq
    01 ESuss6 lo gqsq aq;bo~,~u!
                              t~;ago6peg noA        pue 'stQo!pe3naA       uuo!$aueldxe~oesnDxe ou
    psq noA JEW aqeSi$%s~uj     aq$ plog naA =3]yda~6oulod    amm pagsll s q ~ 3%   s $g)eqlp e w ~ u w
    pue Agungoddo sly) pauspap woa 'mg.jo ;aqg uj p%$wq          o%$adwm@ uo sags aseqg B ~ W P             ~
    03 &unyoddo ue noA ~ p o S~O ~eB ~ ! ~ S 3      B1A
                                                      0L341
                                                          I ~ "awl$PUB ~ I B PAq ps@g;asSB)!S~%AR
    =r!qde~8su~od  oj, sgsp Eugs!~8 0 "@z ~ aunr
                                              ~ ySno~y$gag82 '(: aunr ja po!~ad aq)            /Clfsgsy-i
    BU!SM~BJ~  qam xojadij anoh JQ Ado3 B y ) ! ~pejuasa~da_salv\nola AR~!M~J&I!ayj'Bujsng -pauf$s
                           ~
    pule paw noA y q q 'sjyBy    uape6u!%m~ncaApug? 6 u ! u &                                 t~
                                                                 ~ y~~ ~e se jo Ado=, e y ~ ! ppapi~o~d
          ~
    3 . m noA  "QQZ '          uo MG!M~$U! ayl st Jo!ad "~JQO                  purt 8002             cro
                                                                                                      ~
                                                                            ltq pei\rae!m\4eS
                                                                                            $uJ!~ Mno,
                                                                                 o
                                                             wnoq yssm t ~ p g Bgs!~np suqs
    snaJaeadnu uo SaysqaM bk~!yds~Sou~a.aod  pegs!~noA geyl .pqea~s_s      vscfa~a q l * ~ u ~ J % $ @ J
    Aq ~ssodojdlo a!gou sly$o~u!pa)ejod~o~uy     s?q3tyrn g g ) '~g~jsnBoav uo m ~ ~ g ~ 0e q1 w n ~
    ase3 padaa a~fjeG!~sa~u( panss! 310 aq$ 'Afluawbasqn~')uae~sdsnbaJa~ndusaa$uaww3~k~B
,   40 esn ~noAolu? payzi$!u! sem hjnbu! ue ' j l n s 3 ~a sy -soepp~3!,!yde_sbuodBul~w@!a
    aJaM ncpA ~txjlGu~$mtpu~ ' a a y s d s ~ % $ n d w~nsR
                                                       o ~ wooj p ~ ~ s w Guiaq
                                                                              a ~ t spunas %no$@
    ;btolejdww 1e13uapjum a pan!axu ($10)      Ied.r;euas ~opdstag40          aq$ 'puno~@sq sff
                                            .g, guawyDege y6no~qgpue Aq aj)ou s!q) OJU!~ ~ ) B J Q & O ~ U !
    pur! 02 paqxge aJe sa#s asoql do Bjul~srly 'sagsqia~a!qde~Bou~od 60p h~a$eur~xo~dda
    pelv\a!a noA ley2 paleanal 8 ~ ' &3c eunr                qem ~~7011
                                          ~ 104 holslq ~U!SMQR$      10 uol$Eu!tuexatsv
                                                                                            $# uoiglesy i ~ a d g
                                   ' t $trawqoegay%ino~q$  pue Aq ~ 2 3 s!q)
                                                                          0 ~squ! p$e~o&oaul
    pree o) paq3e~eajr! sal!s asaqg l o 6ugstl                                      od
                                                   -sa)$qaM ~ ! y d ~ ~ ? l g s u9 ~A!a$sw!xoidde
                                                j
    paMay naA 1eqt pateaAa 8 0 0 ~9 9taunr ~ oIlso$s!q G u ? s ~ oq~ qa             ~~n o h40 uaa!aeuswexa
                                                                                              uv
                                                                                            .$# u a l ) ~ ~ ~ l a a d s
                                  ''1$uawyDreQleq6no~q),pueICq W!$oLes!4g Q)Ul ~ ~ ) E J o ~ J o D U ~
    pue og peq3eg)a a.ie sa)p asoq) 4s 6u!gs!l  -saj!sqaAn 3!qdedBau~odpg A[a$ew~xo~dlde
    paMay nsA 8ayj palemas 8002 'E aunr soj A~ojsiqGu!s~oscgqeM ilnoA lo uo!)etmgmexa uv
8     '                                                                   C#uo!ae3yf3&g
                          "'saj~np~ s p g owapad 03 poga ~ssuokgus ui Aguo awl3 (~!=tgjo ~noA
    asn asnu no&'as!msq~pc~     paqjoqlsae A[i~~g!aads sseiun 'awg lE!a!s i a QEssnslU(p) ~9
    paae .%e>t!g                               J
                 ay3 pue %sap!q;aa ' S ~ J W ~"lu~wd!nbBusAdoa ' a a ~ n d w m%seD!lutasauoqd
    pue ~!BLLB   J ~ ~ ~ W U J'salfddns
                                ~ A O ~ W ~ J O %sap[~u!Agadssd Juewudahog *sesod~nd
                         ~
    pazjsoylngun J Q '"asn    sq malls JO "! asn ~ o upnua noR paaa Madoird ~ u a s w ~ a ~ ~ ~ o 3
    amasuw PUE j~i3)osd pinsus ~loa -&eds~d $enaaumenQ$ $0 asnslB, $3) 92,
                                                                                                         ~
                                                                                                 ' ? J E &EAE@J
    u! sap?$sq3!q~'pnpuoa 1=!4$3 jo spJEpueJS pue $saaalut 4s ~$3!glk~83                       G C lenuew d%iq
    palslolh osie noA .(as!m~ygo ~o [ ~ e s)             d
                                                      ~ dead)     B U ~ B aly
                                                                          ~ S je8ei;i ij8no~qgelpaw/sle!daisw
    ps$q61~8idoa$9uo!$nq@Tpsjp     z ay) Ja Bu!eqa~eBs~ y3ns) sa!$!A!$DEicBall! JQJ $ 0 ~esn ay) (g)
    pus ' { s q ~ sqala a~eycfo~ddeu?   es!Hdey%oro )~!gdxaICtjenxas se q3r2s)q q n d eqg ~ss~ayoaaoa
    og a ~ ! s u ~ &$au
                     o sj asn a41 ( I ) ' $ u e w k ~ ~ ~eqj
                                                          i o Bsp. e6.!~yspeue!)tppP us ui $jessa~       ~
                                                                                                   $ 3 saop    99n
    ayj (1) :$auk ase qjaq!.ta 6u!moll04 at{$:e!fi pap!noecs' ssauisnq p!3fg0 $ 0 BBB       ~ Je:jj sjagEm ~ a j
    ~~eehi3!uo*tpai3pue $auda)ujayljo asn eye&                      seaAopdetd=~,' p g d ju@Aeiaiu! s 3 ~ q sq3iqf8~
    saartdiosssuojjearunuwgtag pua flk~ogsc~;j;4f~~k       jo asn [euosad ucp ksi(sdJSN a?; palelo~nnoA                   ,s
                                                                             I \ , gsq) sew)) Guynp
                                                 .ssaYsnq Ie!D&o aro ~ J ~ A noA
sal!sqam @!qdedM~~od     P~SWI& BOA ' k o j s ~ q ABP QZ s 40 S ~ B P k POJ Jeqjsgoddns p a ! ~ d
sure8 swes saq JOJ ho)s!y 6 u g s ~ a qqah ~woAgo ~ a i ~ a d *.uo!g~uoju!siq) e$nds!p ~gsu
pip       -ssap!A 3 1 q d ~ ~ 8 a ~ P~MB!A
                                     ~ a d dslpete sal!sq%M~ B Q ~ ~ B O P%@S!A
                                                                             U J O nsA~ b ~ q $sew!)
pajuesgdd~~   weq3 9g1 " g ~ e"z) ~gunk 46a~ddly$~ ~ 'E0sung    2 w o ~ew!gj 40 pa42 s umsqs
       noh 'g8e)o            0ue~no [e~~ucs3so$~adsaaljo-a3wO Qq,qw BV\O!M$JU! ~naA6wgta
                                  .& 8uawyDege qhina~qjpue Aq m!9ou s!q ojut pg$~~o&oalm!
pua 03 pey3e~s       s q s assyl jo 6u!$s! *se)!sq%~                              d iej~w!xo~dd~
                                                          ~ s q d ~ ~ 6 o u$ ~~o kA
p%&a!hnoA aeqj p s l s ~ 8002                                          M ja uoj$~ub&~xs
                          ~ s ~ "b aunt 304 A~ojsly,G u j s ~ s ~Qq ~ dnaA                 uv
    " -                                                                      g$#uea!$@3@!3ed~
                                                                                            -hagod
J$$B Sk#J$3 Uo!3@18kAaUl 3J3M SUOfZ3B J ~ O $@q)     L =DM8 (IS&%3 J 8 & f 7 8 O ~ 'L333 $8~snBnyPUE
9 0 0 ~'z ~sn6ny;uoBU!UEEJI &j ayg psjeldwo3 os(e raoa - 8 ~' C2& JsnBny uo Bu!aq )sa$q
                                                     ~~      4 y n ~ a ~ay) pa$ejd.uoa a~leqnoA
aq) qj!/bz slserB 83dq$ )seg aq) ~ of ij u n k t ! ~'sse%rs~e~v
                                                                                .pklpu03r;jw
dnoA sa$@qaDExaJaqVnj @tn]go%JQQA J&?ayJaAoo) ~aydo~fa-03       e p a g ! w ~ djeq) JauuEw
e u] spt3 asaegl papnpleo~noA ley) p@j  aayl .us!p@  sly) asodo~do$ )~sa!~&ns     ueq) wow
s! eusrs doraeqw ~ 0 -0s
                       5 6upp
                           ~ 804 asnaxe ou p ~ noA                                  ! ~ jeql
                                                   q laqj phta sag!s asaqg p e ~ ! snoA
pqgurpe,w q .Alpqspda                                      ~ W O J ~lay%r?w e)s!~do~dedaui
                             pip noll pue ~qraeltuosj $ ~noA
pue a l q e ~ d a ~ a ~paw+ un                                               o
                                     noA *sags a~eyda~ddeu!~o ~ ~ s u a gpaatism3e      Alpa~!p
                            e uQJ
noh . a l q ~ ~ r l i a ~ ~aq                                                              !~
                                                              pua snaejas s! p n p u o ~ s snoA
                                n suo!gae snaA pug g -zu~~yiu6!s
                                                                ;sa!jnp 1r?!3!gowoyad 53 poga
Isauaq us u! Aluo am1 ispgjo dnoA esn jsnw noA 'es!NLsaq$o pazyoylrae3 Afle~g!3adsssaiun
'eusj) lapas $0 e s n i i ~
                          (g) gg, " ~ djuanalaj erl saiQs y~!qwm'pnpuo=) ge3iegg3 ja s p ~ g p l e ~ 3 ~
p u ~ls3JeJui jo s83pyuo3 gk IsnueN - j $       palaelolh
                                                   ~      Qsla noA "g aE~jseeq3 u! peg~jss v
                                                                            JnoY 1 1 8002 'PZauW     1
                                                                       sa~nu!wOE 1 8001 'GZ aunr
                                                t                                     - . --
                                                           satnu!u 2s w e slnoq z 1 8002        aunr
                                                           sa)nu!u ~1 pue s ~ n j a8002 '91 aunr
                                                -- -.-----      +   - saJnu!w ZZ 8002 '9 1 aunf
                                                                        salnu!fi-i 8002: '2~1aunr
                                                                       salnu!UJ8s 8002 ' Z m
                                                             salnu!w I;pue l n o ~ L. 8 0 0 ~
                                                                                            ' s aunr
                                                                       sajnu!~  s.br 8002 '.br aunr
                                               jo sa!$np aq$Gu!wopad pa e ~ nw
                                                                             kah 'awg t ~ q j
Bu!.lina -%8o&$e aj{yM s3jlsqea ~ ! ~ ~ B J ~ O@UuJ! Os s~ ~prre    ~ & Gu!~etpaAq ewl$ $uauude~o6
$2 S J B ~ Ob&
             ~ ~A ! s ~ E u ~ x o J ~ ~ @pasnsiw ncsA " C Q Q ~
                                                       "z       auivkr pue 8002 'g Eaunr ueswsg
Buipaaroa 304 alq!suodsa~a ~ oraoA tCpajew!qn +;a3ts~ls!sse                        ~
                                                          40 &rl!qel!s~teaqJdo n b asgap@
                     3
a$ Alalos s! d ~ Bu!pimawuto~aa    'yawle!odde uo elnpay3sb- ($o
a y j [Su!lp9 Aq ~cslasuwo3e pea^ Aew noA pus 'wesSosd p!juapQaaor, e si stud 'dolesuno3
                     ~
(dm) W E J ~ O Jaaos~$?)s!ss~  aaAoidw3 eas Q$?M$uam~u!oddetoe aqew 08 noA a@n -(
'~o!neyaqaje!~do~ddau!   JnoA pasom ~o o~p;slinqld$umsaq walqo~dleuos~adte ahall* noA .J(
     ' ~ 6 9 3 8pasododd eql JQ poa~ed;~c~!@ou
                                             (3qj EGuynp snjejs Qnp u! u!ewaJ I~!MnoA 'to~gspilp
u a ~ e~Bu~ehuy ~ aaojeq P A ! $ E ) U ~ S~~nJo~hso
                                                  ~ Jnoti Aq apeu Aid34 Aue Jap!sum PUB PBSBQ
sl lesadlo~di3q) ~3!qmuodn japqaw aq$ "!)ou lesodo~tsds!q~        ad\e!AarnAlln~am~!PA-
eql aasg wag, -am13 le!3~0l o junowe alqeuosea ~m re$ gqfSj4 aq) aheq nos .a~p)~luasa~tJda$
~eyaodo A;au~ogeua Aq pajuese~ds~            aq o) jq6!a ayg aAey noA +lesodo~dsyl a ~ ! m a ~
wodC alep 3% jag@sLep Jepuap (PI)uaapnoj usy$lrv\Aidad o$ $48!1a41 eaeq w o ~'JaMsue
sql go poddns u! WuaRne /Cle)uatura~opJaqlo pue s)fhrepge yslwksj og pus q~oqdo BU!$~AW
      o
u l ~ Agle~o                                                                                d
            yboq A j c 8 8 ~03 jqBp a41 anay ngla -uo!g~eiaug r? jou pua ~ ~ s r ~ dB asr ~wrloeo slyk
                                                                                             .raotC
                                                  ~ S U! ~ ~ S E LI~!N\
$s\d!e6au e y e ~6upq uonpE het$!jd!3s!p ~ J B W QJOW               J gedj snoA us p s a p u o ~ s ! ~
)o p@aa JoiAeqaq Ielftuls Aua la43 apq!ssod swm$ ~ s a 6 u ~ ~akga)s ul pawem WE? noA
                     3Eq3 alQBI?"ZAB(dva llh~vBa1)cld33WS!SSa\;P 3alC0ld~gUtl SRq UO!lt?g>tIXWd 3w      pasppE
                                                 S! 1~41
                   q a m i d '~3npumarmoh 3ug~~Bfm!    etaalqo~dpaossad a ahvq noA ax?%aAagaq woil~l
------ --     a
            ---.   ---- ----- --- - 'I---r--       ---      ---- - -                -             - - - ,:s3!3,9- .-- -_ -------
                                                          o ~ sa32p pinoha rsor33m a~14@kengp
                        ao t a d Aq s~mqnjalp u~~ 3 n p a q31as                                           j
                                                                                                 Lm ~ x yaAagaq
                          p u op osls I m p ~ s u o ~ JOJ sa3pr@)suaap~qa   3rng'&8a)!rn            JOB p p no^
                                                                                       L-rac?apl[~oxd
